         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Evaluation Report



       EPA Should Improve Guidance and
       Oversight to Ensure Effective
       Recovery Act-Funded Diesel Emissions
       Reduction Act Activities

       Report No. 11-R-0141

       March 1, 2011
Report Contributors:                                  Rick Beusse
                                                      Chris Dunlap
                                                      James Hatfield
                                                      Erica Hauck
                                                      Geoff Pierce
                                                      Michael Young




Abbreviations

ARRA           American Recovery and Reinvestment Act of 2009
DEQ            Diesel Emissions Quantifier
DERA           Diesel Emissions Reductions Act
DOC            Diesel oxidation catalyst
EPA            U.S. Environmental Protection Agency
FTE            Full-time equivalent
FY             Fiscal year
NOx            Nitrogen oxides
OAR            Office of Air and Radiation
OIG            Office of Inspector General
OMB            Office of Management and Budget
OTAQ           Office of Transportation and Air Quality
PM 2.5         Fine particulate matter


Cover photos: Left to right: Verification of the installation of a diesel oxidation catalyst on an
             existing school bus; verification of a new (cleaner operating) replacement bus;
             and verification of a new diesel engine installed in a marine vessel. (EPA OIG
             photos taken during onsite visits to ARRA DERA projects.)
                       U.S. Environmental Protection Agency 	                                                 11-R-0141
                                                                                                           March 1, 2011
                       Office of Inspector General


                       At a Glance
                                                                             Catalyst for Improving the Environment


Why We Did This Review             EPA Should Improve Guidance and Oversight to
The American Recovery and          Ensure Effective Recovery Act-Funded
Reinvestment Act of 2009           Diesel Emissions Reduction Act Activities
(ARRA) provided the U.S.
                                   What We Found
Environmental Protection
Agency (EPA) with
                                   Documentation of grant activities did not always demonstrate that funded DERA
$300 million in grant funds for
                                   work achieved the desired emissions reductions. For two subgrants involving
diesel emissions reduction
                                   13 completed engine replacements costing $343,753, supporting documentation
activities. We conducted our
                                   did not clearly indicate the emissions certification level of the new engines. Also,
review to determine whether
                                   for three subgrants to replace six vehicles costing $268,000 in DERA funds, the
these funds were effective in
                                   engine model year was different from the vehicle model year. These documentation
obtaining diesel retrofits and
                                   errors could result in EPA overestimating emissions reductions for these projects.
emissions reductions.
                                   Additionally, two subgrantees installed unverified technology costing $15,900 on
Background                         15 buses. Further, quarterly reports included errors on specific project details that
In fiscal year 2008, EPA           could affect the accuracy of EPA’s final emissions reduction projections for these
began funding projects             grants. Additional EPA guidance and oversight is needed to ensure that projects
through grants authorized by       achieve the planned emissions reductions and that activities are reported accurately.
the Energy Policy Act of
2005, Title VII, Subtitle G,       For the state DERA grant reviewed, two subgrantees replaced three vehicles costing
also known as the Diesel           $108,425 even though they planned to replace these vehicles in 2010. EPA grant
Emissions Reduction Act            conditions stipulate that grantees must use funds for early replacements, not to
(DERA). Under this                 replace vehicles or engines that would have been replaced due to normal attrition.
authority, EPA                     However, neither the grant conditions nor EPA guidance explains how to determine
competitively awards grants        normal attrition. We believe these expenditures do not meet the intent of DERA,
for projects to achieve            and that EPA should better define early replacement for its state grant awards.
significant reductions in
diesel emissions that              The methodology used by prime grantees to report the number of jobs funded by
improve air quality and            ARRA appeared reasonable. However, for one grant the prime grantee did not
protect public health. In          adjust job hours to account for cost sharing by the subgrantee. As a result, the job
addition, EPA awards grants        hours reported as funded by ARRA were slightly overstated.
to support state diesel
emissions reduction                What We Recommend
programs.
                                   We recommend that the Assistant Administrator for Air and Radiation require the
                                   Director, Office of Transportation and Air Quality, to (1) develop oversight
                                   procedures to provide reasonable assurance that grantee progress reports are
For further information, contact
                                   accurate and that emissions certification levels are verified, (2) require that DERA
our Office of Congressional,
Public Affairs and Management      grant and subgrant agreements specify the emissions certification level or year of
at (202) 566-2391.                 new engines installed as part of vehicle replacement and engine repower projects,
The full report is at:
                                   (3) issue guidance clearly defining eligible costs for early replacements of vehicles
www.epa.gov/oig/reports/2011/      and engines for state grants, and (4) recoup unsupported expenditures of funds.
20110301-11-R-0141.pdf             The Office of Air and Radiation agreed with our recommendations and is taking
                                   actions to implement them.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                THE INSPECTOR GENERAL




                                           March 1, 2011

MEMORANDUM

SUBJECT:	              EPA Should Improve Guidance and Oversight to Ensure Effective
                       Recovery Act-Funded Diesel Emissions Reduction Act Activities
                       Report No. 11-R-0141


FROM:                  Arthur A. Elkins, Jr.
                       Inspector General

TO:                    Gina McCarthy
                       Assistant Administrator for Air and Radiation


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated direct labor and travel costs for this report are $358,741.

Action Required

In response to the draft report, the Office of Air and Radiation provided a corrective
action plan on January 14, 2011, that sufficiently addressed all recommendations. We
believe that the Office of Air and Radiation’s proposed, ongoing, and completed actions
for those recommendations meet the intent of these recommendations, and we are closing
all recommendations in our tracking system upon issuance of this report. No further
response is required for those recommendations. The Office of Air and Radiation needs
to track these closed recommendations to completion in the Agency’s tracking system.

We have no objections to the further release of this report to the public. This report will
be available at http://www.epa.gov/oig.
If you or your staff have any questions regarding this report, please contact Wade Najjum,
Assistant Inspector General for Program Evaluation, at (202) 566-0832 or
najjum.wade@epa.gov; or Rick Beusse at (919) 541-5747 or beusse.rick@epa.gov.
EPA Should Improve Guidance and Oversight                                                                                   11-R-0141
to Ensure Effective Recovery Act-Funded
Diesel Emissions Reduction Act Activities



                                   Table of Contents 


Chapters
   1	   Introduction ........................................................................................................         1


                Purpose .......................................................................................................       1     

                Background ................................................................................................           1     

                Noteworthy Achievements ...........................................................................                   4

                Scope and Methodology..............................................................................                   4


   2	   Additional EPA Guidance and Oversight Needed to Ensure 

        Effectiveness of Diesel Emissions Reduction Act Activities.........................                                           7


                Oversight Needed to Ensure Grant Projects Achieve Emissions
                   Reductions and Are Reported Accurately .............................................                               7

                Guidance Needed to Ensure That Funds Are Not Used to Replace
                   Engines That Would Have Been Replaced Anyway ..............................                                       11 

                Methodology to Report the Number of Jobs Funded Was Reasonable .......                                               14 

                Other Matter ...................................................................................................     14

                Conclusions....................................................................................................      14 

                Recommendations .........................................................................................            15 

                Agency Comments and OIG Evaluation .......................................................                           16 


   Status of Recommendations and Potential Monetary Benefits..............................                                           17 




Appendices
   A	   Agency Response to Draft Report ......................................................................                       19 


   B    	 istribution ............................................................................................................
        D                                                                                                                            26 

                                            Chapter 1

                                             Introduction
Purpose
                 Under the American Recovery and Reinvestment Act of 2009 (ARRA), Congress
                 appropriated $300 million to the U.S. Environmental Protection Agency (EPA) to
                 award as grants to states, local governments, and nonprofit organizations to
                 reduce emissions from diesel engines. We conducted this evaluation to determine
                 whether selected ARRA grants were effective in obtaining diesel retrofits and the
                 intended diesel emissions reductions. Specifically, we addressed the following
                 objectives:
                         Were claimed project activities and emissions reductions accurate?
                         Were funds used to retrofit or replace engines that would have been
                          scrapped or retrofitted anyway?
                         Is the methodology used to report the number of jobs created/saved
                          reasonable?
Background
                 Diesel engines power a wide variety of vehicles and equipment, such as heavy-
                 duty trucks and buses, nonroad agricultural and industrial equipment,
                 locomotives, and marine vessels. Although EPA has issued a number of standards
                 over the past decade to control emissions from new diesel engines,1 older engines
                 continue to emit significant amounts of pollutants such as nitrogen oxides (NOx),
                 fine particulate matter (PM 2.5), and cancer-causing air toxics such as benzene.2
                 NOx contributes to ozone, a major component of smog and a health risk to many
                 Americans, and PM 2.5 has been linked to heart disease, respiratory ailments, and
                 premature death. In addition, EPA has concluded that diesel exhaust is a likely
                 human carcinogen that can cause lung cancer.

                 Reducing emissions from diesel engines is essential to improving air quality
                 across the nation. In 2008, over half of the U.S. population lived in areas that
                 exceeded air quality standards for ozone and/or PM 2.5, pollution problems to
                 which diesel engines contribute significantly. Because diesel engines have a long
                 useful life—often up to 20 or 30 years—millions of diesel engines built prior to
                 the more stringent emission standards will remain in use for years to come. EPA
                 estimates that engines built prior to 1990 are up to 60 times dirtier than new
                 engines.

1
  These standards include the 2001 heavy-duty highway diesel engine rule, the 2004 nonroad diesel engine rule, the 

2008 locomotive and marine diesel engine rule, and the 2009 Category 3 marine diesel engine rule.

2
  Long-term exposure to high levels of benzene in the air can cause leukemia, particularly acute myelogenous

leukemia, a cancer of the bloodforming organs. EPA has determined that benzene is carcinogenic to humans.




11-R-0141                                                                                                        1
                   In 2005, Congress passed the Energy Policy Act, of which Title VII, Subtitle G
                   established a program commonly referred to as the Diesel Emissions Reduction
                   Act (DERA) program. Under DERA, EPA provides grants and loans to states,
                   local governments, and nonprofit organizations, particularly in areas with poor air
                   quality, to reduce diesel emissions through various emissions reduction strategies.
                   These reduction strategies include retrofitting older engines with emission control
                   devices; repowering or replacing older engines with newer, cleaner engines;
                   reducing engine idling; and switching to cleaner alternative fuels. Congress first
                   appropriated funds for DERA in fiscal year (FY) 2008. In that year, EPA awarded
                   approximately $49 million in grants for diesel reduction programs.

                   DERA Grants Funded Under the Recovery Act
                   Congress appropriated $300 million3 for EPA to award as ARRA DERA grants
                   and loans in FY 2009,4 approximately 6 times the amount of DERA funding in
                   FY 2008. In addition to the environmental goals of DERA—to reduce diesel
                   emissions and improve air quality—the grants awarded with ARRA funds were
                   also intended to promote economic recovery and create or retain jobs. EPA was to
                   consider these economic factors in awarding competitive grants and fund projects
                   that could be undertaken quickly. Table 1 shows how EPA allocated the FY 2009
                   ARRA funds among four DERA programs.

                    Table 1: FY 2009 DERA grants funded by the Recovery Act
                                                                                         Amount         Number of
                         DERA                                                           allocated         grants
                        program                  Program description                 ($ in millions)a    awarded
                     National Clean      Grants awarded competitively to states,
                     Diesel Funding      local agencies, and nonprofit
                                                                                          $156             90
                     Assistance          organizations to reduce diesel emissions
                     Program             through verified technologies.
                     State Clean         Grants allotted to states on a
                     Diesel Program      noncompetitive basis to fund state diesel         88              51
                                         emissions reduction programs.
                     SmartWay            Grants awarded competitively to state,
                     Clean Diesel        local, private, and nonprofit entities to
                     Finance                                                               30               5
                                         establish innovative finance programs
                     Program             that help fleets reduce diesel emissions.
                     National Clean      Grants awarded to state, local, private,
                     Diesel              and nonprofit entities to support the
                     Emerging            development of diesel emissions                   20              14
                     Technologies        reduction technologies.
                     Program
                     Total                                                                $294 a           160
                   Source: OIG-created table from analysis of EPA DERA information.
                             a
                                 The Recovery Act allows 2 percent of the total funds—or $6 million—to be used
                                 for management and oversight of the grants.


3
    Per ARRA, up to 2 percent of the $300 million may be reserved for EPA management and oversight of the grants.
4
    The DERA program was also appropriated $60 million in non-ARRA funds in FY 2009.


11-R-0141                                                                                                        2
                  DERA strictly defines eligible emissions reduction solutions for the competitive
                  National Clean Diesel Funding Assistance Program grants. Eligible projects are
                  limited to the use of one or more of the following solutions:

                          Retrofit technologies—including exhaust controls, engine upgrades, and
                           cleaner fuels use—that have been verified by EPA or the California Air
                           Resources Board
                          Idle reduction technologies that have been verified by EPA
                          Aerodynamic technologies that have been verified by EPA
                          Low rolling resistance tires that have been verified by EPA
                          Engine repowers, which involve replacing old engines with new engines
                           that are certified to meet stricter emission standards
                          Replacing vehicles and equipment with newer models with engines
                           certified to meet stricter emission standards

                  EPA grants to states allow the states more leeway in what types of reduction
                  activities they can fund. For state grants, EPA does not require verified
                  technologies but encourages the states to use verified technologies and reduction
                  strategies to the greatest extent possible.

                  Grant Reporting Requirements

                  At the end of each quarter, grantees are required to submit quarterly reports with
                  information on expenditures, progress, problems, and terms and conditions met.
                  These reports include fleet description spreadsheets that contain details about the
                  grant activities completed, including the types of vehicles impacted, the type of
                  retrofit or replacement that occurred, and usage information such as annual miles
                  traveled.

                  Grantees are also required to submit final technical reports when their projects are
                  complete. The final reports include fleet spreadsheets that are identical to the
                  quarterly fleet sheet reports, except that they also include information about the
                  specific type of retrofit technology used (such as manufacturer and model), and
                  details about the new engines for engine repowers and replacements (such as
                  model and year of the new engine). EPA will use the information from the
                  grantees’ final fleet spreadsheets as inputs into the Diesel Emissions Quantifier
                  (DEQ)5 to estimate final emissions reductions for all the ARRA DERA projects.
                  Because the Office of Transportation and Air Quality (OTAQ) will rely on the
                  data provided by the grantees to calculate the final DEQ emissions reductions, it
                  is essential that the information reported by the grantees be complete and
                  accurate.




5
  DEQ is an EPA-developed model for estimating emissions reductions under specific retrofit scenarios, including
retrofitting, repowering, replacing, or adding devices that reduce pollution, reduce idling time, or improve mileage.


11-R-0141                                                                                                          3
               In addition to EPA’s required grants reporting, ARRA grant recipients must
               submit quarterly reports to the Office of Management and Budget (OMB) through
               an online reporting system. These reports include information on jobs funded by
               ARRA. OMB’s December 2009 revised guidance6 for reporting ARRA-funded
               jobs defined jobs to be reported as “those funded in the quarter by the Recovery
               Act.” The guidance did not establish specific requirements for documentation or
               other written proof to support reported job estimates. Instead, the guidance
               required that recipients of ARRA funds be prepared to justify their estimates. The
               revised guidance differed from OMB’s initial guidance in that recipients of
               ARRA funding are no longer required to make a subjective judgment on whether
               a given job would have existed were it not for the Recovery Act. With respect to
               grant agreements, which include cost-sharing requirements, OMB’s revised
               guidance states, “Jobs funded partially with Recovery Act funds will only be
               counted based on the proportion funded by the Recovery Act.”

Noteworthy Achievements
               In FY 2009, OTAQ and the EPA regional offices awarded 160 ARRA DERA
               grants totaling almost $300 million within a short time period, allowing all but
               one grantee at least a year or more to complete their grant projects. This was
               noteworthy because the amount of funding for the FY 2009 ARRA DERA grants
               awards was about 6 times more than EPA awarded in FY 2008 ($49.2 million),
               the first year that Congress appropriated grant funds for DERA. Awarding the
               grants quickly was important because the project period for the grants ended on
               September 30, 2010, and the prime grant recipients needed sufficient time to
               award subgrants for designated projects. The regions awarded 85 of the 90
               competitive national grants by the end of July 2009 and awarded 4 more by the
               end of September 2009. The regions also awarded 50 of the 51 state and District
               of Columbia grants by the end of April 2009, and the sole remaining state grant in
               September 2009.

Scope and Methodology

               We limited our review to National Clean Diesel Funding Assistance Program
               grants and State Clean Diesel Program grants, since they accounted for the
               majority of the ARRA DERA funding (88 percent of the number of grants and
               83 percent of the value of the grants). As shown in table 1, EPA awarded 90
               National Clean Diesel grants totaling $156 million, and 51 state grants totaling
               $88 million, or $1.73 million per state. At the time we selected the grants for our
               review, EPA had disbursed only about 13 percent of the total awarded grant funds
               for the National Clean Diesel and State Clean Diesel grants, as reported in EPA’s
               Integrated Financial Management System. Thus, the majority of planned grant

6
 OMB Memorandum M-10-08, Updated Guidance on the American Recovery and Reinvestment Act – Data
Quality, Non-Reporting Recipients, and Reporting of Job Estimates, December 18, 2009.



11-R-0141                                                                                        4
                  project activities had not been completed when we began our work and could not
                  be verified.

                  To address our objectives, we reviewed activity under two grants—one national
                  grant and one state grant. We selected these two grants from a list of the 20 grants
                  with the most funds expended as of March 18, 2010. We purposefully selected
                  two grants that involved multiple sectors (e.g., construction, public transit,
                  delivery), and multiple emissions reduction activities (e.g., idle reduction
                  technologies, vehicle replacements, engine repowers, etc.). Using the above
                  criteria, we selected grants awarded to the State of New Hampshire and the
                  American Lung Association of the Upper Midwest for detailed review. We
                  reviewed completed retrofit and replacement activities for 11 subgrants awarded
                  by New Hampshire and 15 subgrants awarded by the American Lung Association
                  of the Upper Midwest. In all, we reviewed 323 completed activities7 under these
                  two grants. We physically verified the retrofit installation or engine/vehicle
                  replacement for 25 of these 323 activities.

                  We conducted field work at EPA OTAQ in Washington, DC; the New Hampshire
                  Department of Environmental Services in Concord, New Hampshire; and the
                  American Lung Association of the Upper Midwest headquarters in Springfield,
                  Illinois. We physically verified the completion of diesel emissions reduction
                  projects in Dover, New Hampshire; Newburyport, Massachusetts; Durham, New
                  Hampshire; Pembroke, New Hampshire; Manchester, New Hampshire;
                  Milwaukee, Wisconsin; Fort Wayne, Indiana; and Decatur, Indiana.

                  We interviewed staff and managers from OTAQ (Ann Arbor, Michigan, and
                  Washington, DC), EPA Region 1 (Boston, Massachusetts), EPA Region 5
                  (Chicago, Illinois), the New Hampshire Department of Environmental Services
                  (Concord, New Hampshire), and the American Lung Association of the Upper
                  Midwest (Springfield, Illinois). To verify the completion of ARRA-funded diesel
                  emissions reduction activities, we reviewed documentation such as invoices and
                  cancelled checks to support the completion of the activities as provided in the
                  approved work plans and/or grant agreements. For a subset of these reviewed
                  activities, we also conducted on-site visits to verify that activities were completed
                  as reported.

                  We obtained grant award data from EPA’s Integrated Financial Management
                  System to determine the universe of ARRA DERA grants and to select sample
                  grants for review. We determined that the Integrated Financial Management
                  System data were sufficient for these purposes.


7
  We use the term “activity” to refer to the installation of a single retrofit or emissions reduction technology, the
replacement of one vehicle, or the repower of one engine. In general, the number of activities on a given grant
equals the number of vehicles impacted under the grant. However, in some cases, one vehicle may have had more
than one activity—for example, a school bus may have had both a retrofit technology and an idle reduction
technology installed, for a total of two activities.


11-R-0141                                                                                                           5
            We conducted our field work from February to December 2010 in accordance
            with generally accepted government auditing standards. Those standards require
            that we obtain sufficient, appropriate evidence to provide a reasonable basis for
            our findings and conclusions based on our evaluation objectives. We believe that
            the evidence obtained provides a reasonable basis for our findings and
            conclusions based on our objectives.

            Review of Management (Internal) Controls

            Generally accepted government auditing standards require that auditors obtain an
            understanding of internal controls significant to the audit objectives and consider
            whether specific internal control procedures have been properly designed and
            placed in operation. We reviewed internal controls pertaining to oversight of grant
            activities and expenditures, such as EPA and ARRA quarterly reporting, DERA
            grant guidance, regional grant oversight procedures, and guidance for EPA grant
            project officers. We also reviewed internal controls pertaining to ARRA jobs
            reporting, such as OMB’s grant reporting guidance and EPA’s procedures for
            reviewing jobs numbers reported by grantees. In addition, we reviewed
            compliance with applicable laws, including the DERA and ARRA statutes. Our
            findings pertaining to specific internal and management controls are discussed in
            chapter 2 of this report.




11-R-0141                                                                                   6
                                               Chapter 2

                 Additional EPA Guidance and Oversight 

                   Needed to Ensure Effectiveness of 

                Diesel Emissions Reduction Act Activities 

                    Documentation of grant activities was not always sufficient to demonstrate that
                    funded work met the specific requirements needed to achieve the desired
                    emissions reductions. This occurred in part because grantees were not required to
                    obtain verification that completed work met specific EPA emission standards.
                    Further, ARRA DERA grant funds were used to replace vehicles that would have
                    been replaced anyway due to normal attrition. The prime grantee project officer
                    chose to fund these projects over other projects because these projects could be
                    implemented quickly. As a result, over $203,0008 in potentially ineligible costs
                    were incurred. EPA does not have reasonable assurance that engine replacement
                    projects will achieve their estimated emissions reductions. Additional EPA
                    guidance and oversight is needed to assure these completed activities achieve the
                    planned emissions reductions and that the activities are reported accurately.
                    Further, additional guidance is needed to clarify when replacements are
                    considered normal attrition and not eligible for DERA funding.

Oversight Needed to Ensure Grant Projects Achieve Emissions
Reductions and Are Reported Accurately
                    Although grantees’ documentation supports that work by vendors or subgrantees
                    was completed before grantees reimbursed them, this documentation was not
                    always sufficient to demonstrate that the work met the specific technical
                    requirements to achieve the desired emissions reductions. Further, quarterly
                    reports contained errors that should be corrected so that EPA can accurately
                    estimate the projected emissions reductions from the projects. Specific problems
                    we noted include the following:

                            Documentation on new engine certification levels was unclear,
                             inconsistent, or insufficient.
                            Emissions reductions for vehicle replacement projects may be
                             overestimated.
                            Two subgrantees installed retrofit technology that was unverified at the
                             time the work was completed.
                            Quarterly reports contained errors that may lead to inaccurate emissions
                             reduction projections.


8
    All dollar amounts presented in this report have been rounded to the nearest whole dollar.


11-R-0141                                                                                               7
               	 One grant agreement had not been revised to account for a reduction in
                  planned retrofit activities.

            EPA could ensure more accurate emissions reductions reporting if it took steps to
            ensure that its grant oversight identifies and resolves these types of problems
            before the ARRA DERA grants are closed and final emissions reductions are
            calculated. In some cases, additional guidance is needed to clarify how grantees
            should address these situations.

            Documentation on New Engine Certification Levels Was Unclear,
            Inconsistent, or Insufficient

            For two engine replacement projects involving 13 completed engine replacements
            at a cost of $343,753, supporting documentation was unclear, inconsistent, or
            lacked a description of the emissions certification level of the new engines. EPA
            needs this information to assure that the projects will result in emissions
            reductions and as input into the DEQ to estimate the projects’ emissions
            reductions. The insufficient documentation about the certification years of these
            new engines had not been identified by EPA monitoring or oversight. We
            question whether EPA can identify the correct emissions certification level
            through its final grant reporting process without the implementation of specific
            procedures to verify engine certification levels. Given the technical nature of
            these engine replacement projects and their higher cost compared with other
            emissions reductions projects, we believe these projects warrant additional
            oversight from EPA to ensure that they achieve their planned emissions
            reductions. The two engine replacement projects are described below:

               Subgrant to Replace Bus Engines

               The national grant recipient awarded a $502,000 subgrant for a project
               involving the replacement of older 1990s engines on 20 urban buses with
               newer, cleaner engines. However, supporting documentation for 11 completed
               replacements costing $276,375 was confusing and insufficient to determine
               the certification level (year) of the new engines. EPA needs the engine
               certification year as input into the DEQ to estimate emissions reductions.

               Because of our inquiries, the subgrantee used diagnostic equipment to scan the
               new engine computers and provided OTAQ with information such as serial
               and model numbers from the scans. Using this information, an OTAQ
               engineer determined that the certification year of the new engines was actually
               more recent (2006) than the certification year shown in the vendor’s invoices
               (2002). Therefore, the project should obtain more NOx reductions than
               originally expected.




11-R-0141                                                                                  8
                       However, our review also found that these 11 completed engine replacements
                       did not include new diesel oxidation catalysts (DOCs).9 A Region 5 technical
                       contact confirmed that the installation did not include new DOCs. Further,
                       both the OTAQ engineer and the technical contact said that unless the vendor
                       installed new DOCs, the new engines would not achieve the certification
                       configuration required to meet either 2006 or 2002 emissions standards.
                       Without new DOCs, the buses likely will not achieve the 2 tons of particulate
                       matter emissions reductions planned.

                       The 11 replacement engines were completed as of March 31, 2010. The
                       invoices for these 11 replacements stated that the new engines were certified
                       to meet the emission standards in place in 2002. Vendor representatives and
                       prime grant recipient grant managers also stated that they believed the new
                       engines were 2002 certified. However, during a site visit at the vendor’s
                       garage, we observed a sticker on one of the new replacement engines that
                       stated that the engine was certified to 2006 emission standards. This is
                       significant because EPA’s emission standards changed in 2004, and a 2006-
                       certified engine would have lower emissions than a 2002-certified engine. The
                       vendor provided us with conflicting information about what certification level
                       the engines actually met, at first providing us with certification information
                       for 2002-certified engines and later providing us with certification information
                       for 2006-certified engines. After we presented our concerns about this
                       subgrant to Region 5 grant technical contacts, one of the region’s technical
                       contacts visited this subgrantee in August 2010 to verify the new engine
                       replacements. The EPA technical contact confirmed that the vendor did not
                       install new DOCs. The existing DOCs were approximately 10 years old or
                       older, and according to an OTAQ engineer, need to be replaced for the new
                       engines to meet either the 2002 or 2006 engine certification configurations.
                       We estimate the cost of installing new DOCs on the 11 completed buses we
                       reviewed to be about $11,550 (11 @ $1,050 per DOC).

                       Subgrant to Replace Construction Equipment Engines

                       For one of the state awarded subgrants totaling $260,000 to replace engines on
                       six pieces of heavy construction equipment, the invoices did not show whether
                       the vendor conducted the work as planned for two of the replacements
                       completed at the time we conducted our review. The agreement between the
                       prime grantee and the subgrantee required the replacement of old engines with
                       new engines that met Tier 110 emissions standards. However, the invoice was
                       contradictory, stating that the new engines were both Tier 1 and Tier 2
                       engines. Representatives for the invoicing company told us that some
                       statements in the invoice were incorrect but that they had installed new Tier 1

9
  Diesel oxidation catalysts are intended primarily to reduce particulate matter emissions, but also to reduce carbon 

monoxide and hydrocarbons. They do not have a significant impact on NOx emissions.

10
   EPA established emissions standards for heavy-duty construction equipment in incremental levels or tiers. Tier 1 

refers to the first level of emissions standards, and Tier 2 is the second, more stringent level of emissions standards.



11-R-0141                                                                                                             9
               engines. We requested a corrected invoice that showed the certification levels
               for the two invoiced engines that we reviewed. We were not provided with a
               corrected invoice; instead, we were provided with four “Engine Emissions
               Data” documents that showed the certification level (Tier 1) for four engines.
               However, we were unable to match the serial numbers on the “Engine
               Emissions Data” documents to the serial numbers listed for the new engines in
               the invoice’s supporting data. The cost of these two engine replacements was
               $67,378.

            Emissions Reductions on Vehicle Replacement Projects May
            Potentially Be Overestimated

            For six vehicle replacements totaling $268,000 in DERA funds, the model year of
            the engines in new vehicles was not the same as the vehicle model year. This
            difference in years could potentially result in an overestimation of emissions
            reductions for these projects if not reported correctly. The model year of the
            engines was not evident from the invoices for these vehicles, and was only
            discovered after we visited one of the subgrantees and discussed the project with
            company officials. Specifically, older vehicles were replaced with model year
            2010 vehicles; however, the vehicles had engines that were certified to meet the
            emission standards in place for 2007 (i.e., 2007 model year engines), not the
            stricter emission standards in place for 2010 engines.

            The DEQ User’s Guide states that when entering new vehicle information into the
            DEQ, the engine model year—not the vehicle model year—should be entered in
            the “model year” field. EPA’s final fleet sheet reporting template, which EPA
            plans to use to input information into the DEQ for final project emissions
            reduction estimates, contains a field “Technology Model Year” under the inputs
            for the “New Vehicle/Technology Information” table. EPA’s instructions for the
            final report state that the new model year should be reported for replacements and
            repowers, but does not specify that it is the engine year—not the vehicle year—
            that should be reported.

            For vehicle replacement projects, we believe “Technology Model Year” could be
            misinterpreted to mean the vehicle model year, and not the engine model year on
            vehicle replacement projects. If the final fleet sheets submitted to EPA do not
            indicate the correct model year of the engines, the emissions reductions for these
            types of projects could be overstated.

            Two Subgrantees Installed Unverified Technology

            Fifteen retrofit activities we reviewed involved the installation of retrofit
            technology that EPA had not verified for the specific model years of the vehicles
            at the time the project was approved. At the time the installations were completed,
            EPA had not verified any of the vendor’s DOCs for school bus model years 2004
            to 2006. Subsequent to the installation of these DOCs, EPA verified one specific



11-R-0141                                                                                   10
                    manufacturer’s technology for model years 2004 to 2006. Information we
                    gathered indicates that this technology is used by the vendor who conducted the
                    work. As of October 2010, EPA had not determined whether these 15 DOCs
                    costing $15,900 used the subsequently verified technologies. Even if these
                    technologies turn out be approved technologies, the approval of these projects
                    represented a breakdown in the oversight process.

                    Quarterly Reporting Errors May Lead to Inaccurate Emissions
                    Reduction Projections

                    Grantee reporting on completed activities contained numerous errors that could
                    affect the reliability of EPA’s final emissions reductions estimates for the ARRA
                    DERA program. For example, the national grantee reported annual miles traveled
                    and annual idling hours as sums in its quarterly reports, rather than as averages.
                    According to EPA guidance, these data elements should be reported as averages,
                    not fleet totals. To the extent that the calculations in the DEQ are based on these
                    variables, the resulting DEQ emissions reduction projections may be inaccurate.
                    Other reporting errors in the quarterly reports included designating the wrong
                    retrofit technology and citing the incorrect year that the retrofit occurred.

                    Grant Agreement Not Revised to Account for Reduction in Planned
                    Activity

                    One of the subgrantees on the national grant we reviewed decided to install only
                    21 of the 25 direct-fired heaters11 originally specified in its grant agreement.
                    Neither the national grant recipient nor EPA identified this situation through
                    monitoring or oversight. The national grant recipient made its final payment to the
                    installation vendor on January 14, 2010. The grant recipient’s quarterly report to
                    EPA for the period ending March 31, 2010, indicated there were no problems in
                    completing planned projects. In addition, EPA Region 5’s progress report review,
                    dated February 3, 2010, contained the words “none identified” in response to the
                    review question, “Please identify any commitments in the work plan . . . not
                    addressed in the report or reported as not accomplished.” If EPA’s desk review
                    had included a review of the vendor’s invoice, EPA could have determined that
                    the vendor installed only 21 direct-fired heaters. Such a review would allow EPA
                    to put the funds to better use by preparing a grant amendment to make the $7,200
                    in unused funds ($1,800 per heater for a total of $7,200) available for other diesel
                    retrofit projects under this grant.

Guidance Needed to Ensure That Funds Are Not Used to Replace
Engines That Would Have Been Replaced Anyway
                    EPA guidance specifically defines early replacement for its national competitive
                    grants, but the Agency should improve its state grant guidance to ensure that

11
     Direct-fired heaters reduce diesel emissions by reducing engine idling.


11-R-0141                                                                                            11
            DERA funds are not used to replace engines that would have been replaced
            anyway. We found that two subgrantees in New Hampshire were reimbursed
            approximately $108,425 in ARRA DERA funds to replace three vehicles—one
            grader and two dump trucks—even though information indicated that the
            subgrantees would have replaced the vehicles through normal attrition.

            All grant agreements between EPA and the states include programmatic condition
            9(d) regarding early replacement of vehicles or engines. Programmatic condition
            9(d) states:

                   Early replacement: Funds may be used for the early replacement of
                   vehicles, engines and/or equipment. Emissions reductions that
                   result from vehicle, engine or equipment replacements that
                   would have occurred through normal attrition are considered
                   to be the result of normal fleet turnover and not eligible costs
                   under this assistance agreement [emphasis added]. The
                   recipient must provide evidence that the replacement activity
                   would not have occurred without the financial assistance provided
                   by EPA. Supporting evidence can include verification that the
                   vehicles or equipment being replaced have useful life left and fleet
                   characterization showing fleet age ranges and average turnover
                   rates.

            While the above condition states that the replacement of vehicles that would have
            occurred through normal attrition is an ineligible cost, the grant agreements
            between EPA and the states contain no further definitions of “early replacement”
            or “normal attrition.” EPA has not issued any additional guidance to define
            normal attrition.

            In contrast, EPA has specifically defined requirements for early replacement
            under the national competitive grants. For example, EPA’s request for proposal
            for national grants provides specific examples of when a vehicle would be
            considered as early replacement or normal attrition and thus ineligible for DERA
            funding. Further, EPA’s guidance for the national grants states that a vehicle
            scheduled for replacement during the project period (i.e., before October 1, 2010)
            is not considered an early replacement, and thus not eligible for funding under
            DERA. We believe the grant agreements between EPA and the states should be
            more specific regarding early replacement and normal attrition to address the
            situations described below and to clearly establish the ability of EPA project
            officers to determine whether costs are ineligible.

            Subgrant to Replace Motor Grader

            One New Hampshire town received a subgrant on August 19, 2009, from the state
            to replace a motor grader, even though the town indicated it had plans to replace
            the vehicle. The town was reimbursed $58,200 in ARRA funds, which was



11-R-0141                                                                                   12
            25 percent of the cost of the grader. The town’s capital improvement plan for
            2007–2016 recommended replacing the motor grader in 2010. Instead, the grader
            was replaced in late August 2009 under the state’s ARRA DERA grant. Further,
            according to the town’s project proposal form, the motor grader had begun
            leaking oil and was having emissions problems, and that refurbishment of the
            machine would not bring the motor grader up to current emissions standards.

            Subgrant to Replace Two Dump Trucks

            On November 18, 2009, another New Hampshire city received a subgrant from
            the state to replace two dump trucks that the subgrantee had scheduled for
            replacement. In March 2010, the city was reimbursed $50,225 (25 percent of the
            total replacement cost) with ARRA DERA funds. According to the city’s capital
            improvement plan, the trucks were scheduled to be replaced in the city’s fiscal
            year 2010, which ran from July 1, 2009, to June 30, 2010. The city’s fleet
            manager confirmed to us that the city planned to replace the trucks. Further, the
            fleet manager told us that because of the deteriorating condition of one of its
            dump trucks, the city was using that dump truck only for emergency snow
            removal during the winter.

            The New Hampshire grant project officer was aware of the plans for replacing
            these three vehicles but told us that the state was looking for projects that were
            ready to begin and could be implemented quickly, as opposed to choosing
            potential projects whose completions were less certain. EPA managers told us that
            they considered these disbursements eligible costs under the program and cited
            the DERA statute as giving states latitude on what DERA projects they fund.
            Specifically, DERA states that:

                   . . . a State shall use any funds provided under this section to
                   develop and implement such grant and low-cost revolving loan
                   programs in the State as are appropriate to meet State needs and
                   goals relating to the reduction of diesel emissions.

            We acknowledge that the lack of specificity in the state grant programmatic
            conditions established by EPA to implement DERA makes it difficult to determine
            whether costs were ineligible. However, given the condition of the replaced
            equipment and both entities’ documented plans to replace these vehicles, we do not
            believe these replacements ($58,200 for 25 percent of the cost of the grader and
            $50,225 for 25 percent of the replacement cost for the two dump trucks) met the
            intent of the DERA program. EPA should more clearly define its programmatic
            conditions for early replacements under state grants.




11-R-0141                                                                                   13
     Methodology to Report the Number of Jobs Funded Was 

     Reasonable 


                  In general, the job reporting methodology used by the two grantees we reviewed
                  appeared reasonable.12 Both grantees obtained information from each of their
                  subgrantees and vendors concerning the jobs that were funded by the ARRA
                  grants. This information provided sufficient support for the hours that were
                  included in these grantees’ jobs computations and met OMB requirements.

                  However, one grantee reported ARRA-funded full-time equivalents (FTEs) to
                  EPA without adjusting FTEs for subgrantee cost sharing, resulting in a slight
                  overstatement of ARRA-funded work hours. This oversight had a minimal impact
                  on the total FTEs reported for this grant, since some subgrantees were public
                  school systems that did not have a cost-share requirement, and the cost-share
                  requirement for other subgrantees did not exceed 30 percent of the project cost.
                  EPA could improve the accuracy of its ARRA jobs reporting by instructing its
                  project officers to ensure that grantees review and adjust their reported job totals
                  by any applicable cost-share percentages.

Other Matter
                  One of the grantees overpaid a vendor a total of $609 for 21 timers for direct-fired
                  heaters that were installed on school buses. According to the grant agreement
                  between the prime grant recipient and the subgrantee, the cost of the timers was
                  not to exceed $440. However, the vendor charged $469 for the installation of each
                  timer. We informed the grantee of the overcharge. As a result, the grantee
                  contacted the vendor and received a $609 credit for the overpayment. The grantee
                  plans to use this credit to pay for other work to achieve diesel emissions
                  reductions conducted by this vendor under the grant.

Conclusions
                  The results of our review of completed and reimbursed activities on two grants
                  indicated that EPA should improve its oversight and issue additional guidance to
                  ensure that grant activities are effective in achieving the anticipated emissions
                  reductions for those projects. For example, DERA grant project officers should
                  perform additional oversight of engine replacement projects to verify the emission
                  certification levels of the new engines. Further, oversight is needed to ensure that
                  grantee reports are accurate and provide the information needed to correctly
12
  We noted that one grantee used different weekly hour totals to define an FTE for the same type of work. OMB
guidance allows grantees to base an FTE on the number of hours representing “a full work schedule for the kind of
job being estimated.” While the total hours used to define the work week were not materially different for these
vendors, the possibility exists for vendors to use significantly different weekly hour totals in defining an FTE for the
same position. If a significant number of vendors defined the work week as substantially below 40 hours, we believe
the reported number of FTEs funded could be misleading to recipients of the information if they assumed that
reported hours were based on a traditional 40-hour work week.


11-R-0141                                                                                                           14
            estimate emissions reductions. Also, guidance is needed for state grants to clarify
            when vehicle replacements are considered normal attrition and therefore not
            eligible for DERA funding.

Recommendations

            We recommend that the Assistant Administrator for Air and Radiation require the
            Director, Office of Transportation and Air Quality, to:

               1. 	 Before allowing EPA project officers to close out the ARRA DERA
                    grants, provide DERA grant project officers notice of the reporting errors
                    and oversight problems we identified, including:

                       a. 	 unclear, inconsistent, and insufficient documentation for engine
                            certification levels;
                       b. 	 engine vehicle year reported instead of engine model year;
                       c. 	 ineligible retrofits due to technology not being verified;
                       d. 	 numerous errors in quarterly progress reports; and
                       e. 	 the need to timely review project activities and, when some
                            planned retrofits technologies are not performed, put the funds to
                            better use by preparing a grant amendment.

               2. 	 Before allowing EPA project officers to close out the ARRA DERA
                    grants, develop and issue EPA monitoring and oversight guidance or
                    procedures for the grant project officers to provide reasonable assurance
                    that:

                       a. 	 grantees’ quarterly and final reports accurately identify the work
                            completed on projects,
                       b. 	 the emissions certification level of new engines in engine repower
                            and engine/vehicle replacement projects is verified and accurately
                            reported, and
                       c. 	 ARRA job totals on cost-sharing projects are reduced by the
                            percentage of subgrantee cost sharing.

               3. 	 Before allowing EPA project officers to close out the ARRA DERA
                    grants, require DERA grant project officers to verify the installation of
                    new DOCs that meet the certified engine configuration for new engines or
                    recoup $11,550 for the estimated cost of installing the DOCs from the
                    total project cost for the 11 completed urban bus repowers in our review.

               4. 	 Before allowing EPA project officers to close out the ARRA DERA
                    grants, require DERA grant project officers to verify that Tier 1 engines
                    were installed for the two construction equipment repowers in our review
                    or recoup the $67,378 in grant funds for these two unsupported engine
                    replacements.


11-R-0141                                                                                       15
               5. 	 Before allowing EPA project officers to close out the ARRA DERA
                    grants, require DERA grant project officers to verify that the 15 DOCs
                    installed in buses under two subgrants awarded under the national grant
                    are now verified technologies or recoup the $15,900 in grant funds for the
                    DOC retrofits of 15 buses where the grantee installed unverified
                    technology.

               6. 	 Before allowing EPA project officers to close out the ARRA DERA
                    grants, require DERA grant project officers to verify that the grader and
                    two dump trucks identified in the capital improvement plans were eligible
                    for DERA funding or recoup $58,200 for the grader and $50,225 for the
                    two trucks.

               7. 	 Revise programmatic condition 9(d) for future state grant awards to clarify
                    the definition of early replacement for state grants or otherwise provide
                    guidance to state grant recipients to more clearly define eligible and
                    ineligible costs for early replacements of engines.

               8. 	 Require DERA grant and subgrant agreements to specify the emissions
                    certification level or year of new engines to be installed as part of vehicle
                    replacement and engine repower projects.

Agency Comments and OIG Evaluation

            The Office of Air and Radiation (OAR) agreed with our findings and conclusions,
            and has agreed to implement all of the report’s recommendations. In its
            January 14, 2011, response to the draft report, OAR detailed corrective actions it
            has ongoing and planned, as well as actions it has already taken, to address each
            of the recommendations. We commend OAR for beginning to implement the
            report recommendations in such a timely manner. Based on OAR’s written
            response, as well as supplemental supporting documentation provided by OAR
            staff, we are closing all recommendations upon issuance of this report. OAR’s
            complete written response, including its proposed action plan, is in appendix A.




11-R-0141                                                                                      16
                             Status of Recommendations and
                               Potential Monetary Benefits

                                                                                                                           POTENTIAL MONETARY
                                                 RECOMMENDATIONS                                                            BENEFITS (in $000s)

                                                                                                               Planned
 Rec.   Page                                                                                                  Completion   Claimed    Agreed-To
 No.     No.                          Subject                             Status1      Action Official           Date      Amount      Amount


  1      15    Require the Director, Office of Transportation and           C       Assistant Administrator
               Air Quality, to, before allowing EPA project officers                 for Air and Radiation
               to close out the ARRA DERA grants, provide
               DERA grant project officers notice of the reporting
               errors and oversight problems we identified,
               including:
                  a. unclear, inconsistent, and insufficient
                     documentation for engine certification levels;
                  b. engine vehicle year reported instead of
                     engine model year;
                  c. ineligible retrofits due to technology not
                      being verified;
                  d. numerous errors in quarterly progress
                     reports; and
                  e. the need to timely review project activities
                     and, when some planned retrofits
                     technologies are not performed, put the
                     funds to better use by preparing a grant
                     amendment.


  2      15    Require the Director, Office of Transportation and           C       Assistant Administrator
               Air Quality, to, before allowing EPA project officers                 for Air and Radiation
               to close out the ARRA DERA grants, develop and
               issue EPA monitoring and oversight guidance or
               procedures for the grant project officers to provide
               reasonable assurance that:
                  a. grantees’ quarterly and final reports
                      accurately identify the work completed on
                      projects,
                  b. the emissions certification level of new
                      engines in engine repower and
                      engine/vehicle replacement projects is
                      verified and accurately reported, and
                  c. ARRA job totals on cost-sharing projects are
                      reduced by the percentage of subgrantee
                      cost sharing.


  3      15    Require the Director, Office of Transportation and           C       Assistant Administrator
               Air Quality, to, before allowing EPA project officers                 for Air and Radiation
               to close out the ARRA DERA grants, require DERA
               grant project officers to verify the installation of new
               DOCs that meet the certified engine configuration
               for new engines or recoup $11,550 for the
               estimated cost of installing the DOCs from the total
               project cost for the 11 completed urban bus
               repowers in our review.




11-R-0141                                                                                                                                   17
                                                                                                                             POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                           BENEFITS (in $000s)

                                                                                                                 Planned
 Rec.     Page                                                                                                  Completion   Claimed    Agreed-To
 No.       No.                           Subject                            Status1      Action Official           Date      Amount      Amount


   4       15     Require the Director, Office of Transportation and          C       Assistant Administrator
                  Air Quality, to, before allowing EPA project officers                for Air and Radiation
                  to close out the ARRA DERA grants, require DERA
                  grant project officers to verify that Tier 1 engines
                  were installed for the two construction equipment
                  repowers in our review or recoup the $67,378 in
                  grant funds for these two unsupported engine
                  replacements.


   5       16    Require the Director, Office of Transportation and           C       Assistant Administrator
                 Air Quality, to, before allowing EPA project officers                 for Air and Radiation
                 to close out the ARRA DERA grants, require DERA
                 grant project officers to verify that the 15 DOCs
                 installed in buses under two subgrants awarded
                 under the national grant are now verified
                 technologies or recoup the $15,900 in grant funds
                 for the DOC retrofits of 15 buses where the grantee
                 installed unverified technology.


   6       16     Require the Director, Office of Transportation and          C       Assistant Administrator
                  Air Quality, to, before allowing EPA project officers                for Air and Radiation
                  to close out the ARRA DERA grants, require DERA
                  grant project officers to verify that the grader and
                  two dump trucks identified in the capital
                  improvement plans were eligible for DERA funding
                  or recoup $58,200 for the grader and $50,225 for
                  the two trucks.


   7       16     Require the Director, Office of Transportation and          C       Assistant Administrator
                  Air Quality, to, revise programmatic condition 9(d)                  for Air and Radiation
                  for future state grant awards to clarify the definition
                  of early replacement for state grants or otherwise
                  provide guidance to state grant recipients to more
                  clearly define eligible and ineligible costs for early
                  replacements of engines.


   8       16     Require the Director, Office of Transportation and          C       Assistant Administrator
                  Air Quality, to, require DERA grant and subgrant                     for Air and Radiation
                  agreements to specify the emissions certification
                  level or year of new engines to be installed as part
                  of vehicle replacement and engine repower
                  projects.




O = recommendation is open with agreed-to corrective actions pending
C = recommendation is closed with all agreed-to actions completed
U = recommendation is undecided with resolution efforts in progress




11-R-0141                                                                                                                                     18
                                                                                 Appendix A

                  Agency Response to Draft Report




MEMORANDUM

SUBJECT:      Office of Air and Radiation’s (OAR) Response to OIG Draft Report EPA Should
              Improve Guidance and Oversight to Ensure Effective Recovery Act-Funded
              Diesel Emissions Reduction Act Activities, Project No. 2010-1177

FROM:         Gina McCarthy
              Assistant Administrator

TO:           Wade Najjum, Assistant Inspector General for Program Evaluations


        Thank you for the opportunity to comment on the Office of Inspector General (OIG) draft
report, EPA Should Improve Guidance and Oversight to Ensure Effective Recovery Act-Funded
Diesel Emissions Reduction Act (DERA) Activities, Project No. 2010-1177, dated December 14,
2010, which focused on grant activities under DERA’s Recovery Act program. The
recommendations provided in the draft report will help OAR continue to improve its oversight
and guidance for DERA grant activities.

        OAR appreciates the effort by the OIG to thoroughly understand the complexity of clean
diesel projects, including the technologies, engines and devices used to lower exhaust from
diesel vehicles, vessels and equipment, and to identify several areas for improvements in
guidance and oversight. OAR and the Regions have already begun to work diligently to
implement the recommendations in this report. Specifically there are several recommendations
involving subgrants which we believe have now been resolved. Corresponding materials
provided by the grantees to the Regions will be forwarded to the OIG under separate cover. In
addition, we have made progress on the other more general recommendations for enhanced
reporting. A summary of the recommendations, their associated actions and projected
completion dates is attached at the end of this document. Please see the specific
recommendations below and their updates.




11-R-0141                                                                                   19
     1.	 Before allowing EPA project officers to close out the American Recovery and
         Reinvestment Act (ARRA) DERA grants, provide DERA grant project officers notice
         of the reporting errors and oversight problems we identified, including:

        a. 	 unclear, inconsistent, and insufficient documentation for engine certification levels;
        b. 	 engine vehicle year reported instead of engine model year;
        c. 	 ineligible retrofits due to technology not being verified;
        d. 	 numerous errors in quarterly progress reports; and
        e. 	the need to timely review project activities and, when some planned retrofits
            technologies are not performed, put the funds to better use by preparing a grant
            amendment.

     EPA Response: OAR and the Regions have addressed this recommendation and have
     taken action to improve its reporting and oversight. Specifically:
       - Project Officers have been provided notice of the reporting errors and inconsistencies
           noted above.
     In addition:
       -	 A technical information guidance document is being developed for EPA Project
           Officers and Grantees which details how to ascertain engine certification levels using
           PM/NOx certification levels for both on-highway and nonroad engines.
       -	 Quarterly and final reporting templates are being revised to clarify needed information,
           such as emissions levels, technology type/make/model/year and other datapoints,
           including:
           -	 the emissions levels for the four criteria pollutants (PM, NOx, CO and HC, as well
               as CO2), so that grantees will have to report that information;
           -	 the headings for “engine model year” and “year of retrofit activity” and their
               definitions so that correct costs/benefits can be calculated.

     2. 	 Before allowing EPA project officers to close out the ARRA DERA grants, develop
          and issue EPA monitoring and oversight guidance or procedures for the grant project
          officers to provide reasonable assurance that:

        a. 	 grantees’ quarterly and final reports accurately identify the work completed on
             projects,
        b. 	 the emissions certification level of new engines in engine repower and 

             engine/vehicle replacement projects is verified and accurately reported, and

        c. 	 ARRA job totals on cost-sharing projects are reduced by the percentage of

             subgrantee cost sharing. 


     EPA Response: OAR agrees with this recommendation and has taken action to improve its
         reporting and oversight. Specifically:
     -	 Quarterly and final reporting templates are being revised to clarify needed information,
         including a new seven-page narrative outline for final reports.
     -	 A technical information guidance document is being developed for EPA Project Officers
         and Grantees which details how to ascertain engine certification levels using PM/NOx
         certification levels for both on-highway and nonroad engines



11-R-0141                                                                                        20
     -	 Project Officers will be retrained on job calculation involving cost-sharing projects.
     -	 OAR has held three training sessions for EPA DERA programmatic staff and project
        officers on the IG findings on repowers, exhaust control technologies and idling
        reduction technologies. The first was an in-person training held on October 22, 2010 in
        Washington, D.C. with approximately 40 staff and managers attending; one was a
        webinar for EPA Project Officers on December 14, 2010; and the final webinar for
        Project Officers and grant reviewers was on January 12, 2011.

     3. 	 Before allowing EPA project officers to close out the ARRA DERA grants, require
          DERA grant project officers to verify the installation of new DOCs that meet the
          certified engine configuration for new engines or recoup $11,550 for the estimated cost
          of installing the DOCs from the total project cost for the 11 completed urban bus
          repowers in our review.

     EPA Response: EPA staff in Region 5 worked with the grantee, the fleet, and the vendor to
     install diesel oxidation catalysts to bring the buses to the 2006 certified engine
     configuration. Once the installations were complete, the vendor provided the grantee with
     an invoice and letter confirming the installations at their cost. It is not necessary to recoup
     any funds.

     4. 	 Before allowing EPA project officers to close out the ARRA DERA grants, require
          DERA grant project officers to verify that Tier 1 engines were installed for the two
          construction equipment repowers in our review or recoup the $67,378 in grant funds for
          these two unsupported engine replacements.

     EPA Response: EPA staff in Region 1 followed up with the grantee, and asked that they
     obtain updated, clarified invoices that clearly indicate the serial numbers of the newly
     installed engines, and that on the invoice, identify the engines as meeting the Tier 1 level of
     emissions reduction. The grantee has indicated that the vendor is not able to provide
     updated invoices, as that will cause a problem with their computer billing system.
     However, the vendor was able to send record maintenance notes where the serial number of
     the engine and the vehicle are both listed. After further follow up by Region 1, the grantee
     obtained a letter, dated December 23, 2010, from the engine manufacturer. The letter
     clearly describes each engine, with serial number, that was installed on each vehicle, with
     vehicle serial number, and further indicates that the engines were certified as Tier 1.

      Follow-up actions are completed. Region I has reviewed the three documents referenced
     above and has determined that they demonstrate that Tier I engines were installed and
     therefore, it is not necessary to recoup any funds.

     5. 	 Before allowing EPA project officers to close out the ARRA DERA grants, require
          DERA grant project officers to verify that the 15 DOCs installed in buses under two
          subgrants awarded under the national grant are now verified technologies or recoup the
          $15,900 in grant funds for the DOC retrofits of 15 buses where the grantee installed
          unverified technology.




11-R-0141                                                                                         21
     EPA Response: After reviewing and verifying completed work and associated
     documentation with the vendor and fleet, Region 5 determined that only three of the 15
     diesel oxidation catalysts installed were not verified for the engine model years of those
     buses (the other 12 were actually fuel-operated heaters or verified catalysts). These diesel
     oxidation catalysts have been subsequently verified by EPA for installation for the engine
     model year in question (2004), therefore it is not necessary to recoup any funds.


     6. Before allowing EPA project officers to close out the ARRA DERA grants, require
     DERA grant project officers to verify that the grader and two dump trucks identified in the
     capital improvement plans were eligible for DERA funding, or recoup $58,200 for the
     grader and $50,225 for the two trucks.

     EPA Response: The OIG draft report on page 13 refers to the $58,200 in ARRA funds that
     was spent on a grader (25% of the grader cost), as well as $50,225 for two dump trucks (25
     percent of the total replacement cost). The OIG states that the cities’ capital plans
     indicated these vehicles were scheduled for replacement, and that the vehicles were in
     deteriorating condition.

     EPA staff in Region 1 requested documentation/information from the grantee indicating
     how the grantee established/evaluated eligibility for replacement vehicles for the two sub-
     grants, as well as how the determination process worked. Region 1 also asked for a
     clarification of the context in which the cities’ capital plans were discussed, and current
     status.

     The grantee has indicated that they will comply with this request. Region 1 will evaluate
     this additional information once it has been submitted. However, the preliminary
     determination by Region 1 is that it is not necessary to recoup funds, as the grantee has met
     the terms and conditions of the grant. The grantee complied with the overarching goal of
     the Recovery Act, which was to create jobs and get funds into the economy as quickly as
     possible, and the goals of DERA to reduce diesel emissions. The grantee conducted its
     own competition to find projects that were “shovel ready,” which was conducted openly
     and with transparency.

     As determined by the OIG’s own investigation, the grantee

                         “…was looking for projects that were ready to begin and could be
            implemented quickly, as opposed to choosing potential projects whose completions
            were less certain. EPA managers told [the OIG] that they considered these
            disbursements eligible costs under the program and cited the DERA statute as giving
            states latitude on what DERA projects they fund. Specifically, DERA states that, ‘…a
            State shall use any funds provided under this section to develop and implement such
            grant and low-cost revolving loan programs in the State as are appropriate to meet
            State needs and goals relating to the reduction of diesel emissions…’ We [OIG]
            acknowledge that the lack of specificity in the state grant programmatic conditions
            established by EPA to implement DERA makes it difficult to determine whether costs
            were ineligible.”


11-R-0141                                                                                      22
     In addition, the OIG determined in their report, “…neither the grant conditions nor EPA
     guidance explain how to determine normal attrition.” The recommendation to make the
     eligibility/attrition requirements clearer for all grants is addressed in Recommendation #7.
     However, in the meantime, the grantee used a reasonable approach to meet the express
     purpose of other, more urgent, ARRA requirements, especially given they were working
     with imprecise guidance and an established system of flexibility for states. Moreover,
     although the vehicles were potentially scheduled for replacement, given the economic
     drivers of the ARRA program, the cities may not have been able to follow through on that
     plan, and therefore may have not been able to make the replacements without EPA
     assistance, which is one of the accepted parameters of making an eligibility decision.
     Region 1 has asked the grantee for further clarification on this point; documentation will be
     forwarded to the OIG when it is received from the grantee.

     7.	 Revise programmatic condition 9(d) for future state grant awards to clarify the
         definition of early replacement for state grants or otherwise provide guidance to state
         grant recipients to more clearly define eligible and ineligible costs for early
         replacements of engines.

     EPA response: The program will provide guidance as the State Clean Diesel Program
     grants are amended for Fiscal Year 2011 to clarify the definition of “early replacement.”

     8. 	 Require DERA grant and subgrant agreements to specify the emissions certification
          level or year of new engines to be installed as part of vehicle replacement and engine
          repower projects.

     EPA Response: EPA will require this information for all applications before awards
     are made, in order to assure that there will be a project environmental benefit. Terms
     and Conditions for all new grants for repower and replacement projects will be
     revised to specifically require this information in their reporting. In addition,
     Quarterly and Final Report templates are being revised to include this information
     and it will be required before grant close-outs. Finally, all regional and headquarters
     grant reviewers for the 2011 competition were trained on this issue at a webinar on
     January 12, 2011.

        A summary table of OAR's corrective actions and associated projected completion dates
is attached. Copies of responses from Region 1 and Region 5 are included as separate
attachments. If you have any questions, please contact me or staff member Jennifer Keller (202-
343-9541).

Attachments




11-R-0141                                                                                          23
                              Corrective Actions and Projected Completion Dates
Rec.   Page                                                                  Lead                              OAR Corrective Action                              Planned Completion
No.     No.                          Subject                             Responsibility                                                                                  Date

 1      15    Require the Director, Office of Transportation and         Assistant        OAR will develop guidance and procedures for documenting                    April, 2011
              Air Quality, to, before allowing EPA project officers      Administrator    engine certification levels, and revise templates for clearer and
              to close out the ARRA DERA grants, provide                 for Air and      more accurate reporting. OAR will train all EPA DERA ARRA
              DERA grant project officers notice of the reporting        Radiation        Project Officers and technical staff at HQ and in the Regions on
              errors and oversight problems we identified,                                technologies (verification, certification levels, etc.).
              including:
                 a. unclear, inconsistent, and insufficient
                    documentation for engine certification levels;
                 b. engine vehicle year reported instead of
                    engine model year;
                 c. ineligible retrofits due to technology not
                     being verified;
                 d. numerous errors in quarterly progress
                    reports; and
                 e. the need to timely review project activities
                    and, when some planned retrofits
                    technologies are not performed, put the
                    funds to better use by preparing a grant
                    amendment.

 2      15    Require the Director, Office of Transportation and         Assistant        OAR will revise quarterly and final reporting templates so that             April, 2011
              Air Quality, to, before allowing EPA project officers      Administrator    grantees can more accurately report completed work and
              to close out the ARRA DERA grants, develop and             for Air and      emissions certification levels for new engines. OAR will re-train all
              issue EPA monitoring and oversight guidance or             Radiation        EPA DERA ARRA Project Officers on correct job calculation.
              procedures for the grant project officers to provide
              reasonable assurance that:
                 a. grantees’ quarterly and final reports
                     accurately identify the work completed on
                     projects,
                 b. the emissions certification level of new
                     engines in engine repower and
                     engine/vehicle replacement projects is
                     verified and accurately reported, and
                 c. ARRA job totals on cost-sharing projects are
                     reduced by the percentage of subgrantee
                     cost sharing.

 3      15    Require the Director, Office of Transportation and         Assistant        OAR believes that this issue is closed, as the correct DOCs have
              Air Quality, to, before allowing EPA project officers      Administrator    now been installed on all 11 urban buses at the vendor’s expense.
              to close out the ARRA DERA grants, require DERA            for Air and
              grant project officers to verify the installation of new   Radiation
              DOCs that meet the certified engine configuration
              for new engines or recoup $11,550 for the
              estimated cost of installing the DOCs from the total
              project cost for the 11 completed urban bus
              repowers in our review.

 4      16    Require the Director, Office of Transportation and         Assistant        OAR believes that this issue is closed, as the vendor has now
              Air Quality, to, before allowing EPA project officers      Administrator    verified that the engines in question were in fact Tier 1 engines.
              to close out the ARRA DERA grants, require DERA            for Air and
              grant project officers to verify that Tier 1 engines       Radiation
              were installed for the two construction equipment
              repowers in our review or recoup the $67,378 in
              grant funds for these two unsupported engine
              replacements.




       11-R-0141                                                                                                                                                        24
5   16    Require the Director, Office of Transportation and        Assistant       OAR believes that this issue is closed, as: 1) the number of
          Air Quality, to, before allowing EPA project officers     Administrator   DOCs which were incorrectly installed is three (the other 12
          to close out the ARRA DERA grants, require DERA           for Air and     technologies were fuel-operated heaters or verified catalysts); and
          grant project officers to verify that the 15 DOCs         Radiation       2) the DOCs in question are now verified for the model year of the
          installed in buses under two subgrants awarded                            school bus engines (2004).
          under the national grant are now verified
          technologies or recoup the $15,900 in grant funds
          for the DOC retrofits of 15 buses where the grantee
          installed unverified technology.

6   16    Require the Director, Office of Transportation and        Assistant       OAR believes this issue is closed, as: 1) the grantee did not have       February, 2011
          Air Quality, to, before allowing EPA project officers     Administrator   a clear definition of “early replacement” at the time of the
          to close out the ARRA DERA grants, require DERA           for Air and     subgrantee award; 2) the subgrantee award met other conditions
          grant project officers to verify that the grader and      Radiation       of the grant program , such as “shovel-ready project” and
          two dump trucks identified in the capital                                 “create/save jobs”; 3) due to the economic downturn the
          improvement plans were eligible for DERA funding                          subgrantee would not have purchased the vehicles the year of the
          or recoup $58,200 for the grader and $50,225 for                          subgrantee award. OAR will obtain additional documentation on
          the two trucks.                                                           the last point, above.

7   16    Require the Director, Office of Transportation and        Assistant       OAR will clarify the definition of “early replacement” for grantees of    March, 2011
          Air Quality, to, revise programmatic condition 9(d)       Administrator   the State Clean Diesel program for the FY 2011 round of State
          for future state grant awards to clarify the definition   for Air and     Clean Diesel Grants.
          of early replacement for state grants or otherwise        Radiation
          provide guidance to state grant recipients to more
          clearly define eligible and ineligible costs for early
          replacements of engines.

8   16    Require the Director, Office of Transportation and        Assistant       OAR will amend the Terms and Conditions for future awards to              March, 2011
          Air Quality, to, require DERA grant and subgrant          Administrator   specify the emissions certification level or year of new engines to
          agreements to specify the emissions certification         for Air and     be installed as part of vehicle replacement and engine repower
          level or year of new engines to be installed as part      Radiation       projects.
          of vehicle replacement and engine repower
          projects.




    O = recommendation is open with agreed-to corrective actions pending
    C = recommendation is closed with all agreed-to actions completed
    U = recommendation is undecided with resolution efforts in progress




    11-R-0141                                                                                                                                                   25
                                                                                  Appendix B

                                      Distribution
Office of the Administrator
Assistant Administrator for Air and Radiation
Regional Administrator, Region 1
Regional Administrator, Region 5
Director, Office of Regional Operations
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Office of Transportation and Air Quality, Office of Air and Radiation
Audit Followup Coordinator, Office of Air and Radiation
Audit Followup Coordinator, Region 1
Audit Followup Coordinator, Region 5




11-R-0141                                                                                 26
